OIG Investigative Reports, Florida Man Sentenced to 21 Months in Prison for Fraud and Flight Offenses Following Three Year Fugitive Manhunt
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
FOR IMMEDIATE RELEASE:
September , 2008
U.S. Department of Justice
United States Attorney
MiddleDistrict of Pennsylvania
Ronald Reagan Federal
228 Walnut Street
Suite 220
P.O. Box 11754
Harrisburg, PA  17108-1754
Contact: (717) 221-4482
FAX (717) 221-4493/221-2246
.
Martin C. Carlson, United States Attorney for the Middle District of Pennsylvania, announced today that Phillip Fenner, age 65, formerly of Florida, was sentenced by Chief United States District Judge Yvette Kane to a 21-month term of imprisonment following his conviction for student loan fraud charges, and his indictment for failure to appear for sentencing in October 2005. Chief Judge Kane further ordered that Fenner to pay restitution of $120,676, forfeit a 38 foot yacht used by Fenner while a fugitive to the United States, and serve a two year term of supervised release.
According to U.S. Attorney Carlson, this sentence culminated a three year fraud investigation and international fugitive manhunt involving Fenner. Carlson stated that the investigation of Phillip Fenner began in 2005 when the Office of Inspector General for the United States Department of Education, and the Pennsylvania Higher Education Assistance Agency began looking into allegations that Fenner had fraudulently obtained more than $120,000 in federal student loans and grants by  applying in his daughter's name for these benefits, falsely claiming that his daughter was enrolled at Oxford University in Great Britain. As part of this fraud Fenner was alleged to have prepared and submitted fictitious documents purporting to be records of Oxford University to student loan officials in order to deceive those officials into authorizing educational benefit payments to Fenner.
After Department of Education investigators confirmed that the documents submitted by Fenner were fictitious and that Fenner's daughter was not enrolled at Oxford, Fenner was arrested in the Spring of 2005 and was charged with making false statements in connection with federal student loan programs. Fenner pleaded guilty to that charge and was scheduled to be sentenced on this $120,000 student loan fraud charge in October of 2005.
According to federal officials, Fenner failed to appear for this sentencing, sparking a lengthy international fugitive manhunt for this felon and fraud. This manhunt concluded in October 2007 when Fenner was located, and arrested, on-board a 38 foot yacht in the Caribbean island nation of Grenada. Returned to the United States by Grenadian officials, Fenner was sentenced on Monday in federal court to serve 21 months in prison. Fenner was also directed to pay restitution of $120,676. Furthermore, in what is believed to be one of the first cases of its type, Fenner agreed to the forfeiture of the yacht he used as a fugitive to the United States, so that this asset could be sold and used to make restitution to the federal student loan program.
In announcing these convictions and sentences, United States Attorney Carlson praised the hard work of the Department of Education Office of Inspector General, and commended the invaluable assistance of the Pennsylvania Higher Education Assistance Agency (PHEAA).  Carlson stated: "Each year the Department of Education, working through agencies like PHEAA, makes billions of dollars in educational benefits available to needy students. The outstanding work of the Department of Education Office of Inspector General, as reflected in the prosecution fo Phillip Fenner, ensures that these educational programs intended for the needy are not criminally exploited by the greedy. We are grateful for the outstanding work of this exceptional law enforcement partnership".
Printable view
Share this page
Last Modified: 09/25/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov